TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Taxpayer Assistance Centers Are Not
                   Located to Effectively Serve the Maximum
                             Number of Taxpayers



                                        February 11, 2011

                                Reference Number: 2011-40-022




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:
  3 = Identifying Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


THE TAXPAYER ASSISTANCE                                30 minutes of a TAC. This represents more
CENTERS ARE NOT LOCATED TO                             than 100 million taxpayers who do not have
EFFECTIVELY SERVE THE MAXIMUM                          convenient access to a TAC. Conversely,
NUMBER OF TAXPAYERS                                    28 percent of the United States population
                                                       lives within 30 minutes of more than 1 TAC.
                                                       As of October 2010, no actions have been
Highlights                                             taken to combine, relocate, or close the TACs.
                                                       IRS officials cited budget constraints and
Final Report issued on February 11, 2011               legislative concerns as reasons the IRS has not
                                                       moved forward. This has caused the IRS to
Highlights of Reference Number: 2011-40-022            delay conducting any cost-benefit or
to the Internal Revenue Service Commissioner           return-on-investment analyses needed to make
for the Wage and Investment Division.                  any recommendations regarding combining,
                                                       relocating, or closing the TACs.
IMPACT ON TAXPAYERS
                                                       The IRS has not validated the data used in the
The Internal Revenue Service (IRS) provides            current Geographic Coverage Model. Without
taxpayers the option of obtaining personal,            clear documentation on the methodology used, it
face-to-face tax assistance at 401 Taxpayer            is difficult to determine if the results of the
Assistance Centers (TAC) nationwide. IRS               Geographic Coverage Model are reliable. In
employees who work in the TACs assist                  addition, it would be difficult to compare results
taxpayers by interpreting tax laws and                 over a period of time.
regulations, preparing certain individual tax
returns, resolving inquiries on taxpayer               WHAT TIGTA RECOMMENDED
accounts, accepting payments, and providing
various other services designed to minimize the        TIGTA recommended that the Commissioner,
burden on taxpayers in satisfying their tax            Wage and Investment Division: 1) validate the
obligations. It is important that TACs be              data used in the Geographic Coverage Initiative
optimally located to serve the most taxpayers.         process and ensure that all decisions, along with
Management information is essential to                 the data used and methodologies for making the
effectively oversee the TACs.                          decisions, are supported and documented; and
                                                       2) identify opportunities to better align the TACs
WHY TIGTA DID THE AUDIT                                with taxpayer needs and complete the
                                                       evaluative process in the Geographic Footprint
This audit was requested by the Department of          Initiative, including a cost-benefit analysis,
the Treasury to determine whether the current          return-on-investment analysis, taxpayer impact
distribution of the TACs was cost effective in         assessment, stakeholder input, and
terms of coverage and quality of services              communication plan.
provided. This audit is a followup to prior audit
reports on the TAC Program that identified that        The IRS agreed with the recommendations and
key management information used to make                plans to develop more detailed documentation of
decisions and support changes for the TACs             the methodology used by the Geographic
was either incorrect, absent, or based on              Coverage Model, as well as a version control
incomplete data.                                       system to provide documentation of any
                                                       changes made to the Model methodology or
WHAT TIGTA FOUND                                       updates to the source data. It plans to work to
The IRS acknowledges that the locations of             identify opportunities to better align the TACs
most TACs have not changed significantly               with taxpayer needs on a case-by-case basis, as
since Fiscal Year 2000 and that it has not             leases expire and/or events occur that require
kept pace with shifts in population and                unplanned relocations. It also plans to develop
demographics. Currently, 35 percent of the             and implement an evaluative process as part of
United States population does not live within          the Geographic Footprint Initiative.
                                                      DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                     February 11 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                      (for) Michael R. Phillips
                                  Deputy Inspector General for Audit

 SUBJECT:                          Final Audit Report – The Taxpayer Assistance Centers Are Not
                                   Located to Effectively Serve the Maximum Number of Taxpayers
                                   (Audit # 201040016)

 This report presents the results of our review to determine whether the current distribution of
 Taxpayer Assistance Centers is cost effective in terms of coverage and quality of services
 provided. This audit was requested by the Department of the Treasury and is a followup to prior
 Treasury Inspector General for Tax Administration audit reports on the Taxpayer Assistance
 Center Program.1 This review is included in our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenges of Providing Quality Taxpayer Service Operations
 and Leveraging Data to Improve Program Effectiveness and Reduce Costs.
 Management’s complete response to the draft report is included in Appendix IX. Copies of this
 report are also being sent to the Internal Revenue Service managers affected by the report
 recommendations.
 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




 1
     See Appendix IV for a list of prior audit reports.
                     The Taxpayer Assistance Centers Are Not Located to Effectively
                               Serve the Maximum Number of Taxpayers




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Taxpayer Assistance Centers Are Not Optimally Located to
          Meet the Service Needs on a Geographical Basis ........................................ Page 5
                    Recommendations 1 and 2: ....................................................... Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Treasury Inspector General for Tax Administration
          Related Audit Reports ................................................................................... Page 18
          Appendix V – Taxpayer Assistance Blueprint Evaluative Criteria .............. Page 19
          Appendix VI – Geographic Coverage Model Criteria .................................. Page 20
          Appendix VII – Forty-One Taxpayer and Federal Government
          Taxpayer Assistance Center Evaluation Criteria .......................................... Page 21
          Appendix VIII – Timeline of Prior Treasury Inspector General
          for Tax Administration Reports and Related Events and Actions ................ Page 25
          Appendix IX – Management’s Response to the Draft Report ...................... Page 28
        The Taxpayer Assistance Centers Are Not Located to Effectively
                  Serve the Maximum Number of Taxpayers




                        Abbreviations

IRS               Internal Revenue Service

REFM              Real Estate and Facilities Management

TAC               Taxpayer Assistance Center

TIGTA             Treasury Inspector General for Tax Administration

USPS              United States Postal Service
                 The Taxpayer Assistance Centers Are Not Located to Effectively
                           Serve the Maximum Number of Taxpayers




                                          Background

The Internal Revenue Service (IRS) provides taxpayers the option of obtaining personal,
face-to-face tax assistance at 401 Taxpayer Assistance Centers (TAC) nationwide. IRS
employees who work in the TACs assist taxpayers by
interpreting tax laws and regulations, preparing certain      TAC employees assist taxpayers
individual tax returns, resolving inquiries on taxpayer          by interpreting tax laws and
accounts, accepting payments, and providing various other       regulations, preparing certain
services designed to minimize the burden on taxpayers in      individual tax returns, resolving
                                                               inquiries on taxpayer accounts,
satisfying their tax obligations. The IRS suggests that
                                                                  and accepting payments.
taxpayers visit TACs when they have complex tax issues,
need to resolve tax problems relating to their tax accounts,
have questions about how the tax law applies to their
individual income tax returns, or feel more comfortable speaking with someone in person.
In May 2005, the IRS announced plans to close a portion of its TACs as part of the agency’s
continuing efforts to create efficiencies, modernize operations, and reduce costs while
maintaining its commitment to taxpayer service. Congress expressed concern about the
proposed taxpayer service reductions due to the IRS’s inability to explain the potential impact of
these changes on taxpayers. Congress also questioned the IRS’s estimated cost savings from
reducing some of its services.
The House Committee Report stated:
        It is clear to the Committee that IRS has rushed to meet an arbitrary figure specified for
        cuts to service programs, so much so that clearly IRS has not had time to evaluate the
        impact its proposals would have on taxpayers, nor has it consulted with stakeholders.
        The Committee does not question the notion that some taxpayer assistance centers (TAC)
        should be closed or realigned with other IRS assets to achieve savings. However, the
        methodology used to develop the list of TACs to be closed leaves a great deal to be
        desired.1




1
 United States Congress, House Report 109-153, Departments of Transportation, Treasury, and Housing and Urban
Development, The Judiciary, District of Columbia, and Independent Agencies Appropriations Bill, 2006: Internal
Revenue Service, Processing, Assistance and Management, Committee Recommendation.
                                                                                                       Page 1
                 The Taxpayer Assistance Centers Are Not Located to Effectively
                           Serve the Maximum Number of Taxpayers




The Senate Committee Report directed the IRS to:
        …undertake a comprehensive review of its current portfolio of taxpayer services and
        develop a 5-year plan that outlines the services it should provide to improve services for
        taxpayers. This plan should detail how it plans to meet the service needs on a
        geographic basis (by State and major metropolitan area)…2
The TAC Geographic Footprint Initiatives
In response, the IRS developed a 5-year plan, called the Taxpayer Assistance Blueprint Strategic
Plan. The Taxpayer Assistance Blueprint issued in April 2007 committed the IRS to a Service
Improvement Portfolio, which includes the TAC Geographic Footprint Initiatives to identify
opportunities to better align taxpayer needs with resource allocations using demographic
variables to determine the optimal placement of the TACs.
The Taxpayer Assistance Blueprint reported that investment decisions are made through various
processes, with only limited consideration of taxpayer needs and are generally in reaction to
ongoing or pending real estate events. The Blueprint includes a detailed process to analyze TAC
locations for effectiveness in meeting service demands and to make future investment decisions.
The process is designed to deliver the services taxpayers need in an efficient and effective
manner.
As shown in Figure 1, the Taxpayer Assistance Blueprint presented 26 taxpayer and Government
value criteria and a 3-phase process for making future decisions regarding TAC locations.3




2
  United States Congress, Senate Report 109-109, Transportation, Treasury, The Judiciary, Housing and Urban
Development, and Related Agencies Appropriations Bill, 2006: Internal Revenue Service, Processing, Assistance
and Management, Committee Recommendation, July 26, 2005.
3
  See Appendix V for a list of 26 criteria.
                                                                                                        Page 2
                  The Taxpayer Assistance Centers Are Not Located to Effectively
                            Serve the Maximum Number of Taxpayers




                Figure 1: The Three Phases of the TAC Evaluative Process
        Phase 1 – Categorize each TAC to identify those facing staffing and real estate activities in
        the near term, and those TACs currently providing low or redundant population coverage.
        Identify those TACs in these categories and evaluate them based on the 26 taxpayer and
        Federal Government value criteria. Create a list of any recommended closures of the TACs
        deemed appropriate after full consideration of the applied criteria.

        Phase 2 – Bring recommended closures to the IRS Services Committee4 some time after
        the end of the filing season5 in Calendar Year 2007. Manage implementation of approved
        recommendations to minimize negative impact on taxpayers, employees, partners, and filing
        season operations. This process is expected to last into Calendar Year 2008.

        Phase 3 – Continue evaluation of all remaining TACs in terms of all taxpayer and Federal
        Government value criteria and consideration of business rules. Submit additional
        recommended closures to the IRS Services Committee. Throughout the process, consider
        whether the evaluative criteria and process require modification based on lessons learned
        during Phases 1 and 2.
     Source: The 2007 Taxpayer Assistance Blueprint Phase 2 report.

In Fiscal Year 2007, the IRS formed a Validation Team to validate the accuracy of the data
gathered on the TAC Program by the Blueprint team. The Validation Team eliminated 6 of the
26 criteria and added 21, for a total of 41 criteria.6
The Geographic Coverage Model
The Geographic Coverage Initiative as outlined in the Taxpayer Assistance Blueprint has
evolved into the Geographic Coverage Model, which includes nine criteria (or elements) to
determine the optimal locations for the TACs. Each element has a unique coverage rate and is
sorted by zip code. Coverage is determined by the number of taxpayers living within 30 minutes
of an assigned zip code. The data elements in the Model represent the Field Assistance Office’s7
taxpayer base.
In February 2008, the Geographic Coverage Initiative Team was formed with representatives
from four IRS functions and offices: the Field Assistance Office, the Office of the National
Taxpayer Advocate, the Real Estate Facilities Management (REFM) function, and the Office of
Program Evaluation and Risk Analysis. The team’s purpose is to:
    •    Gather and analyze data from various sources, including research conducted during the
         Taxpayer Assistance Blueprint and the Geographic Coverage Model.

4
  The IRS Commissioner chartered the Services Committee as the governance body for IRS service investment
decisions. The committee is responsible for overseeing, prioritizing, and approving an integrated portfolio of IRS
services.
5
  The period from January through mid-April when most individual income tax returns are filed.
6
  See Appendix VII for a list of the 41 criteria.
7
  The Field Assistance Office is responsible for the TAC Program.
                                                                                                             Page 3
                    The Taxpayer Assistance Centers Are Not Located to Effectively
                              Serve the Maximum Number of Taxpayers




      •    Develop a repeatable process for analyzing coverage areas of IRS taxpayer service
           facilities.
The nine criteria included in the                The team is to evaluate coverage to determine: 1) the
Geographic Coverage Model:                       TACs that should be considered for merging or
1. Population - latest estimates from            establishing alternative service options, 2) areas where
   the United States Census.                     additional presence is needed, 3) areas where there is
2. United States Individual Income Tax           overlapping coverage,8 and 4) areas that are
   Returns (Form 1040).                          underserved.
3. Limited Income taxpayers -                    The Geographic Coverage Initiative includes a
   taxpayers making less than                    three-step process to identify and assess the optimal
   $39,000.
                                                 locations of the TACs.
4. Limited English Proficiency
   taxpayers.                                    Step 1 – The REFM function monitors TAC leases and
5. Elderly – taxpayers over age 55.
                                                 notifies the Field Assistance Office 18 to 24 months in
                                                 advance of lease expirations.
6. Disabled taxpayers.
                                                 Step 2 – The Office of Program Evaluation and Risk
7. Taxpayer with less than a high
   school diploma.                               Analysis applies the nine data elements to the
                                                 Geographic Coverage Model, evaluates coverage of the
8. Taxpayers with problem returns
   (late filed and balance due).
                                                 TACs, and notifies the Field Assistance Office of the
                                                 results.
9. Taxpayers issued balance due
   notices.9                                     Step 3 – The Field Assistant Office assesses TAC
                                                 staffing, contacts, and workload, and determines
                                                 whether a TAC should be merged or relocated.
This review was performed at the Field Assistance Office and the Strategy and Finance Office in
the Wage and Investment Division in Atlanta, Georgia; the Office of Program Evaluation and
Risk Analysis in the Research, Analysis, and Statistics function in Washington D.C.; and the
REFM function in the Agency-Wide Shared Services function in Arlington, Virginia, during the
period April through October 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.



8
    Overlapping coverage is where services to taxpayers in the same zip codes are covered by two or more TACs.
9
    See Appendix VI for details on the nine criteria.
                                                                                                           Page 4
                    The Taxpayer Assistance Centers Are Not Located to Effectively
                              Serve the Maximum Number of Taxpayers




                                        Results of Review

Taxpayer Assistance Centers Are Not Optimally Located to Meet the
Service Needs on a Geographical Basis
The IRS acknowledges that the locations of most TACs have not changed significantly since
Fiscal Year 2000, and that it has not kept pace with shifts in population and demographics.
Currently, 35 percent of the United States population does not live within 30 minutes of a TAC,
representing more than 100 million taxpayers who do not have convenient access to a TAC.
Twenty-eight percent of the United States population lives within 30 minutes of more than
one TAC.10
Although leases expired for 119 TACs during Fiscal Years 2008 and 2009, the IRS has no
immediate plans to combine, relocate, or close the TACs as a result of the Geographic Coverage
Initiative. Coverage for 3 of the 119 TACs is 100 percent overlapping and coverage for 18 is
more than 50 percent overlapping. In addition to the 119 TACs with expiring leases, the IRS
identified 10 additional TACs with coverage overlapping 100 percent.
The Treasury Inspector General for Tax Administration (TIGTA) analysis showed:
       •   Ten of Pennsylvania’s 21 TACs are more than 50 percent overlapping.
       •   Texas has the second highest uncovered population as well as the fourth highest
           population with overlapping coverage.
       •   The combined area of the New England States (Connecticut, Maine, Massachusetts,
           New Hampshire, Rhode Island, and Vermont) is one-fourth the size of Texas, has
           10 million fewer people, but has 7 more TACs than Texas.
       •   Michigan has 6 TACs that cover 10 million people and is more than twice the overall
           geographic size of West Virginia. Yet, West Virginia has 7 TACs to cover 1.8 million
           people. In addition, West Virginia is in close proximity to other States and their
           58 TACs.
       •   Florida has almost 50 percent more residents and is nearly 25 percent larger than
           Pennsylvania. Yet, Florida has only 18 TACs and Pennsylvania has 21 TACs.
Field Assistance Office management pointed out that more taxpayer assistors are assigned to the
TACs in Florida than in Pennsylvania. However, there are significantly fewer assistors in

10
     The IRS defines coverage rate as the number of taxpayers living within 30 minutes of an assigned TAC zip code.
                                                                                                            Page 5
                 The Taxpayer Assistance Centers Are Not Located to Effectively
                           Serve the Maximum Number of Taxpayers




proportion to the population. The large number of people in Florida who do not have a TAC
nearby as well as the large number of people in Pennsylvania who have more than one TAC
nearby indicate that resources could be better aligned. In addition, the wait times for taxpayers
visiting the TACs in Florida are greater than in Pennsylvania.
Figure 2 shows the four States with the highest percentage of taxpayers not covered by a TAC,
and the four States with the highest percentage of overlapping population coverage.
                    Figure 2: Uncovered and Overlapping Populations
                                                      Uncovered            Overlapping
                  State
                                                      Population           Population
                  California                          14.1 million
                  Texas                               8.9 million           5.3 million
                  Michigan                            6.4 million
                  Florida                             6.4 million
                  New York                                                  6.7 million
                  New Jersey                                                6.1 million
                  Pennsylvania                                              5.8 million
                Source: The Geographic Coverage Model and TIGTA analysis of State populations.

Geographic coverage analysis is one of the first steps used to determine if the TACs are located
to best serve taxpayers. Once the geographic coverage analysis is completed, other factors need
to be considered, including TAC staffing, number and type of taxpayer contacts, workload, and
stakeholder concerns. Finally, a communications strategy also needs to be developed.
As of October 2010, no actions have been taken to merge, relocate, or close any TACs. IRS
officials cited budget constraints and legislative concerns as reasons the IRS has not moved past
Phase 1 of the evaluative process. This has caused the IRS to delay conducting any cost-benefit
or return-on-investment analyses needed to make any recommendations regarding combining,
relocating, or closing any TACs.

The Geographic Coverage Initiative evolved from the Geographic Footprint
evaluative process
In Fiscal Year 2008, we reported that inaccurate and incomplete management information
continued to delay implementation of the TAC Geographic Footprint.11 The 26 taxpayer and
Federal Government criteria for use in making future decisions regarding the TACs were

11
 Inaccurate and Incomplete Data Have Adversely Affected Implementation of the Taxpayer Assistance Center
Geographic Footprint (Reference Number 2008-40-118, dated May 16, 2008).
                                                                                                     Page 6
                  The Taxpayer Assistance Centers Are Not Located to Effectively
                            Serve the Maximum Number of Taxpayers




replaced with 41 criteria. However, 19 (46 percent) of the 41 criteria contained inaccurate,
redundant, or incomplete data.12
Recommendations included: 1) improving the management information system to capture the
number of taxpayers served, the numbers and types of services provided, and the related
resources; and 2) developing and implementing an internal control system to ensure management
information data are accurate and reliable. The IRS responded that it could not capture detailed
information regarding each individual service because it is cost and resource prohibitive. This
recommendation would have required a new, more robust tracking system to replace the Field
Assistance Office’s current traffic management system. Instead, the IRS stated that information
from the Contact Recording System, along with the Field Assistance Management Information
System and Business Objects,13 was sufficient to capture taxpayer needs and services provided.
In addition, the IRS advised us that it had developed a program called the Geographic Coverage
Model that was to be used to better identify the optimal TAC locations. The Model could be
used to determine if the current TAC location is best or to identify a better location. Further, the
Geographic Coverage Initiative was designed to use specific information to develop a repeatable
process that can be used by the Field Assistance Office to help ensure TAC coverage for service
delivery. The Geographic Coverage Model was particularly important because 119 (30 percent)
of the 401 TAC leases were to expire in Fiscal Years 2008 and 2009.
In January 2010, the Geographic Coverage Initiative Team briefed IRS executives on the current
state of the Field Assistance Office’s Geographic Coverage Initiative with recommendations that
included to:
     •   Consider combining resources of overlapping TACs into a large TAC and/or migrating
         services into a nearby TAC.
     •   Invest savings from elimination of overlapping TACs to eliminate significant gaps in
         coverage identified by the Model.
     •   Establish test sites to increase the coverage rate in underserved areas by partnering with
         State, Federal, and city agencies.
It also identified the TACs with no permanent staffing that could be closed, and the TACs that
would benefit from additional staffing, and reported that it expects to realize savings from the
elimination of overlapping TACs. Even though a recommendation was made to invest savings,
no cost-benefit analysis has been prepared to show how many taxpayers would be affected or the
benefit of combining, relocating, or closing the TACs.


12
  See Appendix VII for a list of the 41 criteria.
13
  Business Objects software provides the IRS with the capability to identify total contacts, wait time, and employee
time use.
                                                                                                             Page 7
                 The Taxpayer Assistance Centers Are Not Located to Effectively
                           Serve the Maximum Number of Taxpayers




We could not test the IRS’s entire evaluative process because it has not proceeded past Phase 1
or has not conducted a cost-benefit analysis. The current process includes the Geographic
Coverage Model, as well as data from the REFM function and the Field Assistance Office’s
management information systems. These are generally the same data and criteria in both
Taxpayer Assistance Blueprint’s Geographic Footprint Initiatives. While all data are not
incorporated into one system, these data include the information necessary to make business
decisions on the TAC Program.

The IRS cannot confirm that the data used in the current Geographic Coverage
Model were validated
Since Fiscal Year 2003, we have reported that the data used to make decisions affecting the
TACs are neither accurate nor reliable. In Fiscal Year 2008, we reported that 19 (46 percent)
of the 41 criteria used in the TAC Geographic
Footprint contained inaccurate or incomplete data.           Since Fiscal Year 2003, TIGTA has
Eight criteria contained inaccurate data involving          reported that the data used to make
the Field Assistance Office’s management                      decisions affecting the TACs are
information systems and how the IRS tracks                      neither accurate nor reliable.
TAC activity and employee workload. Eleven data
criteria identified as inaccurate related to TAC real
estate and employee costs. For example, the IRS inaccurately calculated rent costs, square
footage, and the number of TAC employees currently on the payroll. We reported these same
errors in Fiscal Year 2005, noting that this is typical information that any function should have
readily available to operate effectively.14
In May 2007, the IRS formed a Validation Team to validate the TAC Geographic Footprint data.
In September 2007, the Validation Team raised concerns about the accuracy of the data and
stopped all work on the Evaluative Model. The Validation Team was unable to maintain a
process to ensure the data were current and accurate. The responsibility for compiling and
validating the data was transferred to the Field Assistance Office.15 The IRS still has not
validated the data used in the current Geographic Coverage Model. There is no documentation
on the reliability of the data obtained externally or internally.
Further, the Geographic Coverage Model database ****************3*******************
*****3************. No documentation is available on the methodology used to develop the
database or how it is maintained and controlled. Controls should be in place to ensure all data
are accurate and complete. Controls should also include creating and maintaining records on the
methodology used to develop and maintain the Model.


14
   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured (Reference
Number 2005-40-110, dated July 22, 2005).
15
   See Appendix VIII for a timeline of reports, actions, and events regarding the TACs.
                                                                                               Page 8
                    The Taxpayer Assistance Centers Are Not Located to Effectively
                              Serve the Maximum Number of Taxpayers




Tests show discrepancies in the nine data elements included in the Geographic Coverage
Model
There was insufficient documentation on the data elements in the current Geographic Coverage
Model. For example, for six of nine data elements, the IRS provided multiple sources with
different criteria.
Criteria 1 - Population: Three sources were provided for Calendar Years 2008, 2009, and 2010.
Criteria 3 - Limited Income Taxpayers: 1 source showed the criteria as taxpayers with income
            less than or equal to $39,000; 1 source showed criteria as Adjusted Gross Income16
            equal to or less than $40,000.
Criteria 4 - Limited English Proficiency: 1 source showed criteria as the population age 15 years
            and older; 1 source showed the criteria as the population age 5 years and older.
Criteria 5 - Elderly: 2 sources defined the elderly as age 55 and older; 1 source defined the
            elderly as over age 55.
Criteria 6 - Disabled Taxpayers: Three different sources showed the same criteria—the United
            States Calendar Year 2000 Census data. However, the actual data extracted for the
            data element were not complete and did not include the entire population of disabled
            taxpayers.
Criteria 9 - Notices: One source defined notices as balance due and first notices; one source
            defined notices as all notices.
Without clear documentation on the methodology used, it is difficult to determine if the results of
the Geographic Coverage Model are reliable. In addition, it would be difficult to compare results
over a period of time.

The IRS has been reluctant to move out of Phase 1 and has yet to identify the
optimal TAC locations
The IRS has delayed making any decisions on the TAC Geographic Footprint because of
Congressional concerns and funding limitations. It also states that it has not yet identified a way
to demonstrate how proposed reductions might affect taxpayer compliance, which is necessary
before reducing any taxpayer services. Since the Field Assistance Office took ownership of the
TAC Program in Fiscal Year 2000, the IRS has developed four separate models to evaluate the
locations of the TACs. In addition, we have issued five reports relating to the management




16
     Gross income minus allowable deductions.
                                                                                             Page 9
                 The Taxpayer Assistance Centers Are Not Located to Effectively
                           Serve the Maximum Number of Taxpayers




information systems and the ability of the IRS to use the data to ensure it is best serving
taxpayers who need or want face-to-face assistance.17
Nevertheless, the Field Assistance Office has yet to take the additional steps to recommend any
changes to TAC locations. According to the Taxpayer Assistance Blueprint, the IRS was to start
this process in Fiscal Year 2008.
Congress has expressed concerns about the IRS’s lack of a sound strategy for ensuring the
TACs are optimally located to serve taxpayers
In May 2005, facing a need to cut $55 million from the Fiscal Year 2006 budget, the IRS
proposed the closure of 68 TACs. In response to this announcement, Congress proposed
language to be included in the Department of the Treasury Appropriations Act, 2006,18 that
delayed the closing of any TACs. Subsequently, a law was passed19 delaying the closure of any
TACs.
Congress remains concerned about the effect of TAC closures on taxpayers. In a Senate Report
on the 2008 Budget,20 the Senate Committee on Appropriations cited concerns about any IRS
efforts to significantly reduce taxpayer services, including face-to-face services. The Committee
directed that, if the IRS proposes further reductions in taxpayer services that involve a decrease
in face-to-face service, it must demonstrate that the proposed reductions do not adversely affect
compliance by taxpayers.
The IRS must complete Phase 1 of the evaluative process to determine the feasibility of
locating the TACs to more efficiently and effectively serve taxpayers
In order to make sound business decisions and recommendations, and to provide stakeholders
with sufficient information, the IRS must complete cost-benefit and return-on-investment
analyses to determine the feasibility of closing, relocating, or opening new TACs. In addition,
the IRS must complete an analysis to show how many taxpayers would be affected if the TACs
are combined, relocated, or closed. This analysis must include how it plans to meet the service
needs on a geographic basis (by State and metropolitan area) and how it will ensure taxpayer
compliance is not adversely affected.
Through the Geographic Coverage Model, the IRS has identified opportunities to relocate or
combine the TACs as leases expire, but has taken no actions to close or merge any TACs.
Figures 3 and 4 show that fewer taxpayers visit the TACs to obtain tax forms or answers to tax


17
   See Appendix IV for the list of prior TIGTA reports.
18
   H.R. 3058, Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia,
and Independent Agencies Appropriations Act, 2006.
19
   Transportation, Treasury, Housing and Urban Development, the Judiciary, the District of Columbia, and
Independent Agencies Appropriations Act, 2006, Pub. L. No. 109-115, 119 Stat. 2396 (2005).
20
   S. Rep. No. 110-129, at 23 (2007).

                                                                                                        Page 10
                The Taxpayer Assistance Centers Are Not Located to Effectively
                          Serve the Maximum Number of Taxpayers




law questions, but total activity has not changed significantly and has remained relatively steady
the last 3 fiscal years.
                      Figure 3: Field Assistance Office Total Activities
                                for Fiscal Years 2008—2010




 Source: Field Assistance Office data obtained from the IRS’s internal web site.

                    Figure 4: Taxpayer Assistance Center Contacts for
                                 Fiscal Years 2007–2010
                                       (in millions)

                                        Fiscal Year       Fiscal Year       Fiscal Year   Fiscal Year
      Contacts/Product Lines
                                           2007              2008              2009          2010
      Accounts Contacts                      3.1               3.2                 3.2        3.5
      Forms Contacts                         1.3               1.0                 0.8        0.7
      Other Contacts                         1.4               1.5                 1.5        1.5
      Tax Law Contacts                       0.8               0.6                 0.3        0.3
      Tax Returns Prepared                   0.5               0.6                 0.4        0.4

      Totals                                 7.1               6.9                 6.2        6.4
     Source: The Field Assistance Office (liaison email dated October 25, 2010).




                                                                                                    Page 11
               The Taxpayer Assistance Centers Are Not Located to Effectively
                         Serve the Maximum Number of Taxpayers




As the IRS reported in the Taxpayer Assistance Blueprint, the TACs serve a small percentage of
taxpayers at a high cost, and the majority of taxpayers actually prefer to use other IRS resources
(e.g., the telephone and the IRS Internet site, IRS.gov). However, some taxpayers prefer to
receive face-to-face assistance to meet their tax obligations—especially for more complex issues.
It is essential, given budget constraints and Congressional concerns, that the IRS continues with
its analysis and determines the optimal locations for the TACs that yield the maximum coverage
rate.
The United States Postal Service (USPS) has challenges similar to the IRS’s in closing
and/or relocating post offices
The USPS office locations are largely based on historic needs and patterns. However, recently,
the USPS Office of Inspector General contracted with a statistician to prepare a model showing
optimal locations of post offices. The USPS Office of Inspector General has expressed interest
in the concept of the IRS partnering with the USPS and sharing space and cost, resulting in
potentially serving more postal customers and taxpayers.
The IRS stated this is an option worth exploring. Advantages of partnering with the postal
service include sharing spaces at locations well known to the majority of local populations plus a
relatively secure building space. With the availability of wireless laptops now used by TAC
assistors in Volunteer Program sites, this option is more feasible than it was before the existence
of this technology.
The IRS is exploring alternatives to the TACs
The IRS conducted a pilot of partnering with the IRS’s Volunteer Program sites during the
2009 Filing Season. During interviews, TAC managers stated that they believe this is a viable
option because taxpayers served at a Volunteer Program site lessen the traffic at the TACs during
the filing seasons. The IRS has increased the pilot from 9 sites in the 2009 Filing Season to
27 sites in the 2010 Filing Season and plans to staff 30 Volunteer Program sites during the
2011 Filing Season.
In January 2010, the Field Assistance Office proposed that it should partner with Federal, State,
and city agencies to increase coverage of underserved areas. The test sites would be similar to
assistance sites which have been established after natural disasters. The IRS has reached out to
State agencies but, because of the lack of funding, cannot consider sharing space with any
agency if the IRS would need to contribute to the cost of the combined operation.




                                                                                           Page 12
               The Taxpayer Assistance Centers Are Not Located to Effectively
                         Serve the Maximum Number of Taxpayers




Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Validate the data used in the Geographic Coverage Initiative process
and ensure that the correct criteria are used and all decisions, along with the data used and
methodologies for making the decisions, are supported and documented.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS is developing more detailed documentation of the methodology used by the
       Geographic Coverage Model, as well as a version control system to provide
       documentation of any changes made to the Model methodology or updates to the source
       data. The documentation will include a report on the quality review and validation of the
       methodology that has been conducted by the Office of Program Evaluation and Risk
       Analysis. Training on the use of the TAC relocation Model, already provided to the
       additional Office of Program Evaluation and Risk Analysis staff, will allow for review
       and increased quality control of any analysis from the Model.
Recommendation 2: Identify opportunities to better align the TACs with taxpayer needs and
complete the evaluative process in the Geographic Footprint Initiative, including a cost-benefit
analysis, return-on-investment analysis, taxpayer impact assessment, stakeholder input, and
communication plan.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will work to identify opportunities to better align the TACs with taxpayer needs on a
       case-by-case basis, as leases expire and/or events occur that require unplanned
       relocations. The IRS will develop and implement an evaluative process as part of the
       Geographic Footprint Initiative. The evaluative process will incorporate a cost-benefit
       analysis, return-on-investment analysis, taxpayer impact, stakeholder input, and a
       communication plan.




                                                                                         Page 13
               The Taxpayer Assistance Centers Are Not Located to Effectively
                         Serve the Maximum Number of Taxpayers




                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the current distribution of TACs is cost effective
in terms of coverage and quality of services provided. The Department of the Treasury requested
this audit. To accomplish this objective, we:
I.     Determined the purpose and current state of the Geographic Coverage Model and how it
       is being used to meet the IRS’s strategic goal of improving service to make voluntary
       compliance easier.
       A. Discussed the process and criterion of the current Geographic Coverage Model with
          responsible IRS officials.
       B. Obtained and analyzed the Geographic Coverage Model to determine if it provides a
          “balanced footprint” in determining placement of the TACs to maximize taxpayer
          services provided. We used the data provided by the IRS and did not assess the
          reliability.
II.    Determined if the Geographic Coverage Model produces the optimal locations of the
       TACs in terms of coverage and quality of services provided.
       A. Discussed with responsible IRS officials how the current TAC configuration provides
          convenient access for the maximum number of taxpayers.
       B. Evaluated the REFM function’s validation for the resource costs of TAC operations.
III.   Determined if IRS initiatives other than the Geographic Coverage Model currently
       undertaken by the Field Assistance Office are contributing to make voluntary compliance
       easier.
       A. Discussed with responsible IRS officials the partnering of the TACs with State,
          Federal, and local agencies and with Volunteer Program sites during the filing season
          and how these activities achieve the desired results on voluntary compliance.
       B. Attempted to assess the risk to the taxpayer and tax administration. However, we
          were denied access to the Field Assistance Management Information System, and we
          could not assess fraud or the reliability of the data provided to the TIGTA from the
          system.




                                                                                         Page 14
               The Taxpayer Assistance Centers Are Not Located to Effectively
                         Serve the Maximum Number of Taxpayers




Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Field Assistance Office’s Geographic
Coverage Model and the Field Assistance Management Information System. We assessed
whether the Model shows if current distribution of the TACs is cost effective in terms of
coverage and quality of services provided and evaluated controls by interviewing management
and reviewing policies and procedures. We also conducted tests of the Geographic Coverage
Model.




                                                                                         Page 15
              The Taxpayer Assistance Centers Are Not Located to Effectively
                        Serve the Maximum Number of Taxpayers




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Tracy Harper, Lead Auditor
Roberta Fuller, Senior Auditor
Jerome Antoine, Auditor
Kathy Coote, Auditor
Jerry Douglas, Auditor
Nelva Usher, Auditor




                                                                                    Page 16
              The Taxpayer Assistance Centers Are Not Located to Effectively
                        Serve the Maximum Number of Taxpayers




                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Real Estate and Facilities Management OS:A:RE
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 17
           The Taxpayer Assistance Centers Are Not Located to Effectively
                     Serve the Maximum Number of Taxpayers




                                                                         Appendix IV

           Treasury Inspector General for
      Tax Administration Related Audit Reports

•   Trends in Customer Service in the Taxpayer Assistance Centers Continue to Show
    Procedural Causes for Inaccurate Answers to Tax Law Questions (Reference
    Number 2003-40-158, dated August 12, 2003).
•   The Effectiveness of the Taxpayer Assistance Center Program Cannot Be Measured
    (Reference Number 2005-40-110, dated July 22, 2005).
•   Taxpayer Service Is Improving, but Challenges Continue in Meeting Expectations
    (Reference Number 2006-40-052, dated February 17, 2006).
•   The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data
    (Reference Number 2006-40-061, dated March 22, 2006).
•   Inaccurate and Incomplete Data Have Adversely Affected Implementation of the
    Taxpayer Assistance Center Geographic Footprint (Reference Number 2008-40-118,
    dated May 16, 2008).




                                                                                 Page 18
           The Taxpayer Assistance Centers Are Not Located to Effectively
                     Serve the Maximum Number of Taxpayers




                                                                                       Appendix V

                 Taxpayer Assistance Blueprint
                      Evaluative Criteria

            Taxpayer Criteria                               Government Criteria

1.   Total Population Coverage Rate.                1. Leased/Own.
2.   Low Income Return Coverage Rate.               2. Lease Expiration.
3.   Problem Return Coverage Rate.                  3. Square Feet.
4.   Percent Change in Overall Low Income
     Return Coverage Rate by Eliminating            4. TAC Rent.
     TAC.
5.   Percent Change in Overall Problem
     Return Coverage Rate by Eliminating            5. Costs of Releasing Space.
     TAC.
6.   Percent Change in Total Population             6. Does Another IRS Office Need the
     Coverage Rate by Eliminating TAC.                 Space?
                                                    7. Is the TAC the Entry Point to IRS
7.   Percent of Total Volume Deliverable
                                                       Office for Other Taxpayers and
     Via IRS.gov.
                                                       Employees?
8.   Percent Total Contacts Deliverable Via
                                                    8. Allocated Staffing.
     IRS.gov per Staff Year.
9.   Proximity to Another TAC.                      9. On Rolls.
10. Proximity to Volunteer Program Sites.           10. Retirement Eligibility.
11. Capacity of Nearest TACs and
    Volunteer Program Sites to Absorb               11. Total Volume.
    Displaced Volume.
                                                    12. Percent of Total Volume to Be
                                                        Delivered Via Assisted Service.
                                                    13. Total Contacts Per Staff Year.
                                                    14. Total Assisted Contacts Per Staff
                                                        Year.
                                                    15. Modernization Efforts Applied.
Source: IRS’s 2007 Taxpayer Assistance Blueprint Phase II, Appendix Section 7.0, Figure A-13.

                                                                                                Page 19
                     The Taxpayer Assistance Centers Are Not Located to Effectively
                               Serve the Maximum Number of Taxpayers




                                                                                                   Appendix VI

                      Geographic Coverage Model Criteria

 Taxpayer Criteria Explanation
                   Taxpayer Criteria                                              Explanation

 1. Population - Latest Estimates from the United              Percentage of population, by zip code, located
    States Census.                                             within 30 minutes of travel time from a TAC.
                                                               Percentage of total Processing Year1 2008
 2. United States Individual Income Tax Returns                individual tax return population, by zip code,
    (Form 1040).                                               located within 30 minutes of travel time from a
                                                               TAC.
                                                               Percentage of low-income (based on $39,000) tax
 3. Limited Income Taxpayers - Making Less Than
                                                               return filing population, by zip code, located within
    $39,000.
                                                               30 minutes of travel time from a TAC.
                                                               Percentage of population with limited English
 4. Limited English Proficiency Taxpayers.                     proficiency located within 30 minutes of travel time
                                                               from a TAC.
                                                               Percentage of tax return filing population for which
 5. Elderly – Taxpayers Over Age 55.                           the primary filer is over age 55 located within
                                                               30 minutes of travel time from a TAC.
                                                               Percentage of population with a disability located
 6. Disabled Taxpayers.
                                                               within 30 minutes of travel time from a TAC.
                                                               Percentage of population with less than a
 7. Taxpayer With Less Than a High School
                                                               completed high school diploma located within
    Diploma.
                                                               30 minutes of travel time from a TAC.
                                                               Percentage of tax return filing population either
 8. Taxpayers With Problem Returns (Late Filed                 filing a balance due tax return or late-filed tax return
    and Balance Due).                                          located within 30 minutes of travel time from a
                                                               TAC.
                                                               Percentage of tax return filing population receiving
 9. Taxpayers Issued Balance Due Notices.                      balance due notices located within 30 minutes of
                                                               travel time from a TAC.
Source: IRS’s Geographic Coverage Model (2010).




 1
     The year in which tax returns and other tax data are processed.
                                                                                                             Page 20
                  The Taxpayer Assistance Centers Are Not Located to Effectively
                            Serve the Maximum Number of Taxpayers




                                                                                              Appendix VII

         Forty-One Taxpayer and Federal Government
        Taxpayer Assistance Center Evaluation Criteria

                     Taxpayer Criteria                                      Explanation
    1       Total population coverage rate.                Percentage of population, by zip code, located
                                                           within 30 minutes of travel time from a TAC.
    2       Low-income tax return coverage rate            Percentage of low-income (based on $36,000)
            (Adjusted Gross Income1 less than              tax return filing population, by zip code, located
            $36,000).                                      within 30 minutes of travel time from a TAC.
    3       Low-income tax return coverage rate            Percentage of low-income (based on $35,263)
            (Earned Income Tax Credit cutoff for           tax return filing population, by zip code, located
            Processing Year2 2006 = $35,263).              within 30 minutes of travel time from a TAC.
    4       Problem return3 coverage rate.                 Percentage of potentially noncompliant tax
                                                           return population, by zip code, located within 30
                                                           minutes of travel time from a TAC.
    5       Total Processing Year 2006 individual          Percentage of total Processing Year 2006
            tax return coverage rate.                      individual tax return population, by zip code,
                                                           located within 30 minutes of travel time from a
                                                           TAC.
    6       Low-education tax return coverage              Percentage of low-education (less than high
            rate.                                          school) population, by zip code, located within
                                                           30 minutes of travel time from a TAC.
    7       Wage and Investment Division total             Remove the TAC from geographic coverage
            tax return coverage rate                       analysis and recalculate overall TAC coverage
            (Tax Year 2002).                               for total population.
    8       Change in overall total Processing             Remove the TAC from geographic coverage
            Year 2006 coverage rate if eliminating         analysis and recalculate overall TAC coverage
            a TAC.                                         for total Processing Year 2006 tax returns.
    9       Change in overall low-income tax               Remove the TAC from geographic coverage
            return coverage rate if eliminating a          analysis and recalculate overall TAC coverage
            TAC.                                           for low-income tax returns.




1
  Gross income minus allowable deductions.
2
  The year in which tax returns and other tax data are processed.
3
  Defined by the IRS as tax returns filed late or not fully paid.
                                                                                                          Page 21
          The Taxpayer Assistance Centers Are Not Located to Effectively
                    Serve the Maximum Number of Taxpayers




             Taxpayer Criteria                                  Explanation
10   Change in overall Wage and                Remove the TAC from geographic coverage
     Investment Division low-income total      analysis and recalculate overall TAC coverage
     tax return coverage rate if eliminating   for low-income tax returns.
     a TAC.
11   Change in overall low-education tax       Remove the TAC from geographic coverage
     return coverage rate if eliminating a     analysis and recalculate overall TAC coverage
     TAC.                                      for low-education population.
12   Original count of Tax Year 2004           Count by zip code of the number of Tax
     problem tax returns.                      Year 2004 problem tax returns.
13   Change in Tax Year 2004 problem tax       Remove the TAC from geographic coverage
     return coverage rate if eliminating a     analysis and recalculate overall TAC coverage
     TAC.                                      for potentially noncompliant tax returns.
14   Reduction in total population coverage    Remove the TAC from geographic coverage
     rate as a percentage of the target        analysis and recalculate overall TAC coverage
     population if eliminating a TAC.          for total population.
15   Reduction in problem tax return           Remove the TAC from geographic coverage
     coverage rate for Processing              analysis and recalculate overall TAC coverage
     Year 2006 as a percentage of the          for potentially noncompliant tax returns.
     target population if eliminating a TAC.
16   Reduction in low-income tax return        Remove the TAC from geographic coverage
     coverage rate as a percentage of the      analysis and recalculate overall TAC coverage
     target population if eliminating a TAC.   for low-income population.
17   Proximity of next closest TAC (travel     Distance to next closest TAC (travel time in
     time in minutes).                         minutes).
18   Next closest TAC name/building code.      Closest TAC name and building code.
19   Capacity of alternate TAC to absorb       The nearest TAC site(s) having the requisite
     displaced volume count/percentage.        capacity to absorb the total volume estimated to
                                               be migrated from a given TAC.




                                                                                              Page 22
      The Taxpayer Assistance Centers Are Not Located to Effectively
                Serve the Maximum Number of Taxpayers




         Government Criteria                             Explanation
1    Lease/own.                            TAC space is leased or owned by the
                                           Federal Government.
2    Lease expiration.                     Lease expiration date.
3    TAC square feet.                      Total square footage.
4    TAC rent.                             Annual rent expenditure.
5    Rentable/usable factor.               Rentable space is the area for which a
                                           tenant is charged rent. Usable space is
                                           computed by measuring the area
                                           enclosed by the finished surface of the
                                           room side of corridors and other
                                           permanent walls. Rentable/usable
                                           factor is computed by dividing the
                                           rentable space by the usable space.
6    Cost per square foot.                 Rent cost per square foot.
7    TAC size.                             Defined as small, medium, or large
                                           based on the number of technical
                                           employees at the TAC.
8    Standalone TAC (yes or no).           The TAC is the only IRS function in the
                                           building.
9    Allocated technical Full-Time         Number of Full-Time Equivalent
     Equivalents (the number of hours      employees allocated to a given TAC in
     worked divided by the maximum         the Field Assistance Office’s allocated
     number of compensable hours in a      staffing plan.
     work year).
10   On rolls.                             Number of employees currently
                                           employed in a TAC (as of Fiscal
                                           Year 2007).
11   Initial assistance representatives.   Number of initial assistance
                                           representatives currently employed in a
                                           TAC.
12   Other employees.                      Number of other employees
                                           (e.g., secretaries, supervisors, clerks)
                                           currently employed in a TAC.
13   Technical.                            Number of technical employees
                                           currently employed in a TAC.
14   Retirement eligibility.               Number of employees eligible for
                                           retirement by the estimated TAC closure
                                           date.



                                                                                      Page 23
                  The Taxpayer Assistance Centers Are Not Located to Effectively
                            Serve the Maximum Number of Taxpayers




                    Government Criteria                                  Explanation
          15    Total volume per Business                 Total number of contacts delivered in a
                Performance Management System.            given TAC during last full fiscal year.
          16    Total volume per Q-MATIC.4                Total number of contacts delivered in a
                                                          given TAC during the last full fiscal year.
          17    Total contacts potentially deliverable    Total contacts delivered by a given TAC
                via IRS.gov.                              during the last full fiscal year that could
                                                          be delivered via IRS.gov.
          18    Percentage of total volume                Percentage of TAC contacts delivered
                potentially deliverable via IRS.gov.      by a given TAC during the last full fiscal
                                                          year that could be delivered via IRS.gov.
          19    Total technical and initial assistance    Technical and initial assistance
                representative program hours              representative program hours divided by
                expressed in Full-Time Equivalents.       the number of staff hours that represent
                                                          a Full-Time Equivalent.
          20    Potential IRS.gov contacts per            Total contacts delivered by a given TAC
                technical Full-Time Equivalent.           during the last full fiscal year that could
                                                          be delivered via IRS.gov expressed as
                                                          Full-Time Equivalents.
          21    Total filing season5 volume per Total number of contacts delivered in a
                Business Performance Management given TAC during a filing season.
                System.
          22    Modernization efforts applied.         Have investments already been made in
                                                       installing the TAC Model Design6 in the
                                                       given TAC (if TAC is moving, ignore this
                                                       criterion)?
        Source: IRS Evaluative Model as of October 2007 and TIGTA audit report Inaccurate and
        Incomplete Data Have Adversely Affected Implementation of the Taxpayer Assistance Center
        Geographic Footprint (Reference Number 2008-40-118, dated May 16, 2008).




4
  An automated queuing system used to control the flow of taxpayers waiting for assistance. In most of the TACs,
the Q-MATIC automatically records the number of taxpayers assisted.
5
  The period from January through mid-April when most individual income tax returns are filed.
6
  The TAC Model Design established detailed requirements for small, medium, and large TACs. The TAC Model
Design Guide will be used as a planning and implementation tool by field facility offices to solicit appropriate
leased space for new or relocated TACs nationwide.
                                                                                                         Page 24
               The Taxpayer Assistance Centers Are Not Located to Effectively
                         Serve the Maximum Number of Taxpayers




                                                                                      Appendix VIII

 Timeline of Prior Treasury Inspector General for Tax
                Administration Reports
           and Related Events and Actions

            Before the Field Assistance Office officially began operations in October 2000, TAC
            locations were based on the IRS’s prior structure, which included geographic boundaries of
            regions and districts. In Fiscal Year 2001, the IRS and an independent contractor
            developed the Field Assistance Office Design Plan, which was followed by the Service
 Fiscal     Delivery Model.
Year 2001
            The IRS developed the Planning and Allocation Model and the Field Assistance Resource
            Database Model databases. The information from both databases was eventually to be
            incorporated into a new Field Assistance Office Service Delivery Model, with
            implementation anticipated at the end of Fiscal Year 2005.
            The TIGTA reported the IRS’s estimation of the number of taxpayers who visit the TACs
            could be substantially understated due to inconsistencies in tracking visits, using multiple
            tracking systems, and a manual process of inputting visits to a management information
 August     system.
  2003
            The IRS responded that it planned to install, at each of its TACs, an automated system that
            would allow it to more accurately track taxpayer visits by providing a networked system that
            captures data on customer volumes and the types of service provided to taxpayers.
            The IRS acknowledged that it was no longer using the Service Delivery Model developed in
November    Fiscal Year 2001 to drive the TAC Program. The information contained in the Service
  2004      Delivery Model was never validated and funding had not been provided to meet established
            goals. IRS management indicated they were working to develop a new model.
May 2005    The IRS announced plans to close 68 TACs.

            Congress reacted to the report of the IRS’s decision to close 68 TACs and proposed to
June 2005   delay the closings until the TIGTA completed a study of how the IRS’s plans to reduce
            services would affect taxpayer compliance and taxpayer assistance.

            The TIGTA completed an audit of the TAC Program service delivery and reported that key
            management information used to make decisions and support changes for the TACs was
            either absent or based on incomplete data. The IRS agreed that improving its management
July 2005   information system is critical and planned to develop a web-based management information
            system that would provide critical program planning and control information at the local and
            national levels.
            The IRS halted plans to close any TACs.




                                                                                                  Page 25
                The Taxpayer Assistance Centers Are Not Located to Effectively
                          Serve the Maximum Number of Taxpayers




             The TIGTA completed an audit on taxpayer services and reported that the IRS had
             conducted only limited research on the impact of customer service on taxpayer compliance.
February     The IRS agreed that further study was warranted regarding the impact on taxpayer
  2006       compliance of any reduction in services and stated it was awaiting the results of both the
             2006 Taxpayer Assistance Blueprint (Phase 1) and the TIGTA’s audit of the TAC Closure
             Model (this Model was used to identify which TACs to close).
             The TIGTA completed an audit of the TAC Closure Model, reported inaccuracies and
             inconsistencies in the data used to populate the Model, and raised concerns about using
             the results to select which TACs to close and determine the associated cost savings that
 March       may be achieved.
 2006
             The IRS agreed that data reliability was an issue that must be addressed, stating it would
             ensure data used in any decision-making tool related to the TAC Program were accurate
             and verified.
April 2006   The IRS issued the Blueprint Phase 1 report.

April 2007   The IRS issued the Blueprint Phase 2 report.
             The IRS formed a Validation Team to validate the accuracy of the data gathered on the
             TAC Program by the Blueprint team. A decision was made to scrap the Center Closure
May 2007
             Model and to continue to build a new model (the TAC Evaluative Model) to make decisions
             regarding the TAC Program.
             The Validation Team raised concerns about the accuracy of the data used to populate the
             Evaluative Model. The Validation Team indicated that eight criteria contained inaccurate
September    data. As a result, the Validation Team stopped all work on the Evaluative Model and the
  2007       IRS transferred responsibility for compiling and validating data to the Field Assistance
             Office. The Validation Team was unable to develop a process to keep the data accurate
             and current.
             The Geographic Coverage Initiative Team was formed to gather and analyze data from
February     various sources, including research conducted during the Taxpayer Assistance Blueprint
  2008       and Geographic Coverage Model and develop a repeatable process for analyzing coverage
             areas of IRS taxpayer service facilities.

             The TIGTA completed an audit of the TAC Geographic Footprint, reporting that inaccurate
             and incomplete management information continued to delay implementation of the TAC
             Geographic Footprint. In addition, the optimum locations for the TACs and which taxpayers
             they most effectively serve had not been determined. The IRS was unable to measure how
May 2008     closing Centers might affect taxpayers and compliance.
             The IRS agreed to ensure data were accurate and current by conducting reviews and
             validating Center data weekly by using the Field Assistance Management Information
             System. The Field Assistance Office would use the process developed by the Geographic
             Coverage Initiative to create a balanced footprint designed to maximize services provided.
             The IRS reported to Congress on the implementation of the Taxpayer Assistance Blueprint.
 October     The IRS collaborated with the Volunteer Program sites to provide one-stop service at nine
  2009       existing Volunteer Program sites using the Geographic Coverage Model to identify the best
             locations for expanded service.


                                                                                                 Page 26
             The Taxpayer Assistance Centers Are Not Located to Effectively
                       Serve the Maximum Number of Taxpayers




          The Geographic Coverage Initiative Team briefed IRS executives with recommendations,
          for example, to combine the TACs with overlapping coverage, invest savings from
January
          elimination of overlapping TACs to eliminate significant gaps in coverage identified by the
 2010
          Model, and establish test sites to increase the coverage rate in underserved areas by
          partnering with State, Federal, and city agencies.
          Source: TIGTA audit reports, The 2006 Taxpayer Assistance Blueprint (Phase 1), The 2007
          Taxpayer Assistance Blueprint (Phase 2), Congressional action, and interviews with IRS employees.




                                                                                                   Page 27
   The Taxpayer Assistance Centers Are Not Located to Effectively
             Serve the Maximum Number of Taxpayers




                                                    Appendix IX

Management’s Response to the Draft Report




                                                           Page 28
The Taxpayer Assistance Centers Are Not Located to Effectively
          Serve the Maximum Number of Taxpayers




                                                        Page 29
The Taxpayer Assistance Centers Are Not Located to Effectively
          Serve the Maximum Number of Taxpayers




                                                        Page 30
